March 25, 2021
By Federal Express
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Supreme Court Building
1 First Street, N.E.
Washington, D.C. 20543
Re:

Fernando Clarke v. United States of America
No. 20-____

Dear Mr. Harris:
I enclose the original Petition for a Writ of Certiorari and Application for
Leave to Proceed In Forma Pauperis, and a certificate of service.
Respectfully yours,

Allegra Glashausser

Allegra Glashausser
Counsel of Record
Enclosures
cc:

Honorable Elizabeth Prelogar
Acting Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, N.W.
Room 5614
Washington, D.C. 20530-0001

